No. __________
IN THE SUPREME COURT OF THE UNITED STATES
WHEELER K. NEFF,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
________________
APPLICATION TO THE HONORABLE SAMUEL A. ALITO, JR. FOR
EXTENSION OF TIME TO FILE A PETITION FOR A WRIT OF
CERTIORARI TO THE COURT OF APPEALS FOR THE THIRD
CIRCUIT
________________
Pursuant to 28 U.S.C. § 2101(d) and Supreme Court Rule 13.5,
Applicant Wheeler K. Neff hereby moves for an extension of time of 59 days,
up to and including April 1, 2020, for the filing of a petition for writ of
certiorari. In support of this request, Applicant offers the following:
1.

This Court has jurisdiction to grant this application under 28

U.S.C. § 1254(1).
2.

The Petitioner will seek review of the decision of the Court of

Appeals for the Third Circuit in United States v. Neff, No. 18-2282, which was
issued on September 6, 2019. A copy of the court’s non-precedential opinion is
attached hereto as Exhibit A. The Third Circuit denied Applicant’s petition

for rehearing on November 5, 2019. A copy of the court’s order is attached
hereto as Exhibit B.
3.

Absent an extension, Applicant’s petition for writ of certiorari

would be due on February 3, 2020. This application is being filed more than
ten days before that date.
4.

Applicant was convicted of conspiring to collect unlawful debt in

violation of the Racketeer Influenced and Corrupt Organizations Act (RICO)
and conspiracy to commit mail and wire fraud. The Government invoked two
theories of prosecution: (1) Wheeler Neff conspired with his co-defendant,
Charles Hallinan, to collected high interest payday loans that exceeded state
usury laws and his agreements with Native American Tribes under the
Tribes’ sovereign immunity did not insulate him from those state laws; and
(2) Wheeler Neff conspired to commit mail and wire fraud by devising a
scheme to cause the plaintiffs in a state civil class action lawsuit to settle the
case for a lower amount than they were otherwise entitled to recover and
thereby defrauded plaintiffs out of their cause of action. Applicant, a nearly
71 year-old man, was convicted on November 27, 2017, and sentenced to 96
months imprisonment.
5.

Applicant filed a timely appeal to the Third Circuit and raised

two issues relevant to his expected Petition: (1) whether Tribal Sovereign
Immunity preempted contrary state regulatory laws such as usury; and (2)
whether the Government’s mail/wire fraud theory was deficient because an

unvested cause of action is not money or property under Title 18, U.S.C. §
1341 and/or 1343.
6.

A petition for writ of certiorari is essential in this case because

the Applicant’s will present substantial, important, and recurring questions
of federal constitutional law for which there are conflicting opinions in the
Court of Appeals and confusion in the District Courts. Notably, contrary to
the Third Circuit’s holding that Tribal Sovereign Immunity does not preempt
state usury laws, the Fourth Circuit held in Williams v. Big Picture Loans,
929 F.3d 170 (4th Cir. 2019) that Tribal Sovereign Immunity preempts the
need to comply with state requirements such as licensing and usury rates.
Moreover,

contrary

to

the

Third

Circuit’s

decision

upholding

the

government’s novel wire fraud theory that an unvested cause of action is
traditionally recognized as property, the Ninth and D.C. Circuits have held
that traditionally recognized property rights do not vest until a judgment is
issued, which would defeat the government’s theory of prosecution and is
compelled by this Court’s decision in Cleveland v. United States, 531 U.S. 12
(2000). Applicant also notes that oral argument is currently scheduled to be
held before this Court in Kelly v. United States, No. 18-1059, which also
considers the breadth of the criminal wire fraud statute and will likely bear
on Applicant’s petition.

7.

Undersigned counsel respectfully seeks this extension of time

because of the importance of the issues in this case and the difficulty in
communicating with Petitioner in prison.
8.

An extension of time will not prejudice Respondent.

9.

It should be additionally noted that the Applicant’s co-appellant,

Charles Hallinan, has similarly filed for an extension of time.
Because good cause exists, Applicant respectfully requests that an
extension of time, up to and including April 1, 2020, be granted within which
Applicant may file a petition for writ of certiorari.
RESPECTFULLY SUBMITTED,

__________________________________________
Adam B. Cogan
Counsel of Record
PA ID No: 75654
218 West Main Street
Suite A
Ligonier, PA 15658
(724) 995-8579
Bruce A. Antkowiak
PA ID No: 25506
Saint Vincent College
300 Fraser Purchase Road
Latrobe, PA 15650
(724)805-2940
Attorney for the Applicant

